Audit of USAID/Nigeria’s Participant Training
Activities

7-620-03-004-P

September 12, 2003




                 Dakar, Senegal
September 12, 2003


MEMORANDUM

FOR:           USAID/Nigeria Director, Dawn Liberi

FROM:          RIG/Dakar, Lee Jewell III /s/

SUBJECT:       Report on Audit of USAID/Nigeria’s Participant Training Activities
               (Report No. 7-620-03-004-P)

This memorandum is our final report on the subject audit. In finalizing this report,
we considered your comments on our draft report and included them in Appendix II.

This report contains four recommendations. Based on actions taken by the Mission
in response to the audit findings, management decisions have been reached, and all
recommendations are considered closed upon issuance of this report. No further
action is required of the Mission.

I appreciate the cooperation and courtesies extended to my staff during the audit.




                                                                                       1
(This Page Intentionally Left Blank)




                                       2
Table of   Summary of Results.....................................................................................5
Contents
           Background ..................................................................................................5

           Audit Objectives ..........................................................................................6

           Audit Findings .............................................................................................7

                       Has USAID/Nigeria complied with selected requirements for
                       administering participant training conducted in the
                       United States? ................................................................................7

                                 Mission Needs to Comply with Insurance,
                                 Medical Eligibility and Taxpayer Status ADS
                                 Requirements ...................................................................... 8

                       What have been the non-returnee rates for overseas participants
                       from USAID/Nigeria who were trained in the United States and
                       did USAID/Nigeria take appropriate actions when participants
                       failed to return to their home countries? ......................................10

                       What additional actions should USAID/Nigeria take to meet
                       new requirements for selecting, monitoring, and reporting
                       on participants training in the United States?…...…….………..…10

                                 Background Checks Are Needed
                                 on Participant Trainees .....................................................11

                                 Real-Time Tracking and Monitoring
                                 Are Needed on Participant Trainees .................................12

           Management Comments and Our Evaluation ............................................13

           Appendix I - Scope and Methodology .......................................................16

           Appendix II - Management Comments......................................................18




                                                                                                                       3
(This Page Intentionally Left Blank)




                                       4
Summary of   The objectives of this audit were to determine (1) if USAID/Nigeria
Results      complied with certain requirements for its participant training program;
             (2) if any participant trainees from Nigeria did not return from the United
             States and if so, what actions were taken by USAID/Nigeria; and (3) what
             additional actions the Mission should take to meet new participant training
             program requirements. USAID/Nigeria has complied with many of the
             Agency’s requirements for participant training. The Mission has complied
             with requirements to use the Training Results and Information Network
             system, usually referred to as TraiNet, for processing participant trainee
             data, and for issuing J-11 visas for participants traveling to the United
             States (see pages 7 to 10). Further to their credit, USAID/Nigeria has not
             experienced any situations with non-returnees and thus has not had to take
             any actions to deal with this situation (see page 10). Additionally,
             USAID/Nigeria has taken several positive steps to ensure that the new
             requirements to more actively manage participant training programs are
             met (see pages 10 to 11).

             However, certain problems continue to affect the overall success of the
             program.     These include non-compliance with USAID Automated
             Directives System (ADS) requirements related to obtaining and
             maintaining documentation on health insurance, medical eligibility and
             taxpayer identification; performing background checks on participant
             trainees; and monitoring the participant trainees’ progress on a systematic
             and timely basis (see pages 8 to 10 and 11 to 13).

             To help USAID/Nigeria strengthen its participant training program, we are
             recommending that the Mission Director update the Participant Training
             Mission Order by (1) incorporating the ADS requirements related to
             obtaining individual taxpayer identification numbers (see page 9), (2)
             developing and incorporating a checklist of required documents for each
             participant trainee file (see page 9), (3) developing and incorporating a
             process to perform background checks on all participants traveling to the
             United States (see page 11), and (4) developing and incorporating a
             process to obtain real-time data on the participants’ status while they are in
             the United States and upon their return to Nigeria. (see page 12).


Background   Each year USAID’s participant training programs send approximately
             6,000 people to the United States.2 According to USAID, “participants”
             may be host country residents or foreign nationals taking part in a

             1
               J-1 visas are nonimmigrant visas issued for participants in educational and cultural
             exchange programs, such as USAID’s participant training program.
             2
              Participant training can also be conducted in-country, or in a third country.

                                                                                                      5
                   structured learning activity. Participant training is considered as either
                   short-term or long-term (about 9 months or more) which may include a
                   range of learning activities such as study tours, observational tours,
                   conferences, and academic training. USAID’s participant trainee data is
                   collected and reported through its Training Results and Information
                   Network (TraiNet) database that was developed, maintained, and managed
                   by a contractor, Development InfoStructure (DevIS).

                   As a result of homeland security concerns and the recent attacks on the
                   U.S., increased attention is now being given to all visitors to the U.S.,
                   including those for participant training activities. In addition, new
                   regulations by the U.S. Immigration and Naturalization Service (INS)3 and
                   the Department of State have changed and established more specific
                   procedures for issuing J-1 visas, monitoring exchange visitors, and
                   recording various status changes such as new addresses, altering course
                   loads, etc. Also, the INS developed its own database known as the
                   Student and Exchange Visitor Information System (SEVIS) which
                   required implementation by all sponsors on February 15, 2003 to input
                   data requests for J-1 visa applications and print them electronically. With
                   timely input and accurate data, SEVIS is designed to track the status and
                   location of all foreign students in the U.S. on three different types of visas,
                   although USAID will only use the J-1 visa for its participant training
                   activities. The INS has further determined that “all” students in the U.S.
                   as of August 1, 2003 will be included in SEVIS, including those who were
                   in the U.S. before the initial implementation of SEVIS on February 15,
                   2003.

                   USAID/Nigeria’s participant training program is managed by the Office of
                   Program and Project Development. A Foreign Service National Training
                   Specialist oversees the day-to-day training activities, including entering
                   and verifying data in TraiNet and facilitating the visa process. She also
                   supports and provides training to the 27 implementing partners that have
                   access to TraiNet. Between fiscal year 2000 and 2003, 253 participant
                   trainees from Nigeria have been sent to the United States for training,
                   funded partly or wholly by USAID.


Audit Objectives   This audit was conducted at USAID/Nigeria as part of the world-wide Audit
                   of USAID’s Participant training activities conducted this fiscal year by each
                   of the six USAID Regional Inspectors General and the Performance Audit
                   division of the Office of Inspector General in Washington, D.C.

                   This audit was designed to answer the following objectives relating to
                   participant training activities:


                   3
                       In March 2003, INS was reorganized under the U.S. Department of Homeland Security.

                                                                                                        6
                 •   Has USAID/Nigeria complied with selected requirements                         for
                     administering participant training conducted in the United States?

                 •   What have been the non-returnee rates for overseas participants from
                     USAID/Nigeria who were trained in the United States, and did
                     USAID/Nigeria take appropriate actions when participants failed to
                     return to their home countries?

                 •   What additional actions should USAID/Nigeria take to meet new
                     requirements for selecting, monitoring, and reporting on participants
                     training in the United States?

                 Appendix I contains a discussion of the scope and methodology for this
                 audit.


Audit Findings   Has USAID/Nigeria complied with selected requirements                             for
                 administering participant training conducted in the United States?

                 USAID/Nigeria has complied with many of the Agency’s requirements for
                 participant training, particularly with the use of Training Results and
                 Information Network (TraiNet) and issuance of J-1 visas. The Mission’s
                 compliance with these requirements is particularly noteworthy considering
                 the environment in which the program operates. However, the Mission
                 did not comply with requirements pertaining to obtaining evidence on the
                 participant trainees’ health insurance, medical eligibility and taxpayer
                 status.

                 As required by the USAID Automated Directives System (ADS), the
                 Mission uses TraiNet to enter data for all USAID-funded participants
                 traveling to the United States for training. The Mission staff involved
                 with the participant training program are well trained in their respective
                 TraiNet roles and have good working knowledge of the system.
                 Furthermore, the USAID/Nigeria Mission Order for the participant
                 training program, issued October 15, 2002, specifically requires all
                 implementing partners to use TraiNet software to enter information on
                 training programs and participants. In February 2002, a staff member
                 from Development InfoStructure (DevIS), the company that developed
                 TraiNet, provided TraiNet version 24 training to 41 staff from 23
                 implementing partners, and the Mission’s Training Specialist provided
                 additional training. The implementing partners commented positively
                 about the level of support and guidance from the Mission staff and DevIS.



                 4
                  USAID/Nigeria was the first USAID mission in the world to receive the upgraded
                 TraiNet 2.0.

                                                                                                    7
The Mission’s ability to comply with the requirement to use TraiNet is
remarkable because of the environment in which the program operates.
Mission staff stated that surges and outages of electricity coupled with
slow internet connections have hindered the implementing partners’ ability
to consistently enter and transmit electronic data through TraiNet.
Implementing partners we met with also acknowledged this problem.
Thus, despite training, support and guidance from the Mission Training
Specialist and DevIS, some implementing partners have had and continue
to have difficulties using TraiNet. Another complicating factor is that the
Mission Training Specialist cannot modify data once it is entered by the
implementing partners (due to the design of edit rights in TraiNet), and as
a result, she has often engaged in a series of back-and-forth
communication via telephone or email with the implementing partners to
correct any data entry errors. In some cases, in the interest of time, she
herself would make the initial entry of data to ensure that visas were
processed sufficiently in advance of the training start date. The level of
assistance provided to the implementing partners by the Mission staff to
help resolve these problems is commendable.

Regarding the use of J-1 visas, the USAID/Nigeria Mission Order on
participant training clearly states that J-1 visas must be used by all
USAID-sponsored participants when traveling to the United States for
training, including conferences, regardless of the length of the program.
The Consular officer in Lagos (where J-1 visas are processed) indicated
that his office is vigilant regarding issuance of J-1 visas for participant
trainees. The training files for 69 participant trainees in fiscal years 2002
and 2003 corroborated compliance with the requirements, as all but one of
the trainees used a J-1 visa when traveling to the United States. The one
exception was a physician who traveled on a B-15 visa in order to not miss
his training due to delays in the processing of the J-1 visa application.

Despite these accomplishments, however, USAID/Nigeria did not comply
with other ADS requirements related to the participant trainees’ medical
insurance, medical eligibility and taxpayer status.

Mission Needs to Comply with Insurance,
Medical Eligibility and Taxpayer Status ADS Requirements

The participant training files maintained by the Mission did not contain
documentation or other evidence regarding the participant trainees’ health
and accident coverage, medical eligibility or taxpayer status, as required
by ADS. Specifically, ADS 253.5.6 requires the following for participants
whose training in the United States is wholly or partially financed by
USAID:

5
  B-1 visas are non-immigrant visas issued to persons wanting to enter the United States
temporarily for business purposes.

                                                                                           8
   •   The purchase of a Health and Accident Coverage (HAC) insurance
       policy.

   •   A certification of the participant’s medical eligibility except when
       a particular HAC policy has been purchased for training programs
       of less than 30 days.

   •   The filing of the necessary forms to obtain an Individual Taxpayer
       Identification Number (ITIN).

In 2002, the Mission’s Federal Managers Financial Integrity Act (FMFIA)
report noted a control weakness and associated medium risk to non-
compliance with the HAC requirement, and identified the issuance of a
Mission Order as the planned corrective action. The subsequent Mission
Order related to the participant training program incorporated the
requirements for the HAC as well as the medical eligibility certification
and further states that proof of both of these should be presented to the
Mission’s Training Specialist as part of the J-1 visa application process.

Despite the requirements of the ADS and the Mission’s own order, the
Mission’s files for 36 participant trainees in fiscal year 2002 did not
contain any documentation on HAC, medical eligibility certification or
ITIN. However, the implementing partners who nominated the participant
trainees provided documentation that HAC policies had been purchased
for 28 of the 36 trainees. According to Mission staff, in some cases they
knew that the HAC had been purchased by the implementing partners for
their trainees but did not document the purchase in the files, as required by
the Mission Order. Also, in other cases, the implementing partner
preferred to wait until the participant trainee’s visa was issued before
purchasing the HAC, in case the visa would not be approved.
Additionally, for those participant trainees for whom HAC had not been
purchased, the files contained no evidence of a medical certification.
Finally, none of the files contained evidence that an ITIN had been
obtained for the trainees. The Mission Training Specialist was not aware
of the tax identification number requirement.

Therefore, to facilitate tracking of compliance with ADS requirements and
to ensure that the Mission obtains and maintains required participant
training documents, we make the following two recommendations:

       Recommendation No. 1: We recommend that the
       Mission Director of USAID/Nigeria incorporate the
       Automated Directives System requirement to obtain an
       Individual Taxpayer Identification Number into the
       Mission Order on the participant training program.

                                                                           9
       Recommendation No. 2: We recommend                  that the
       Mission Director of USAID/Nigeria develop a         checklist
       of required documents to be maintained               in each
       participant trainee file and incorporate this       checklist
       into the Mission Order on the participant            training
       program.

What have been the non-returnee rates for overseas participants from
USAID/Nigeria who were trained in the United States and did
USAID/Nigeria take appropriate actions when participants failed to
return to their home countries?

USAID/Nigeria has been in operation since 1999. For the three-year
period between October 1999 and September 2002, USAID/Nigeria has
reported no cases of Nigerians not returning after attending USAID-
sponsored training in the United States. This was corroborated by data
from various sources within USAID/Washington, as well as with
implementing partners in Nigeria who have considerable experience
sending participant trainees to the United States. Because there have been
no cases of non-returnees, the Mission has not had to take any actions to
deal with this situation. The Mission Order does specify that any
participant trainee that does not return to work will be considered a non-
returnee and will be reported to USAID headquarters in Washington, and
the information will be forwarded to immigration officials.

According to the Mission officials, most of the participant trainees that are
sent to the United States are well-established Nigerian citizens with
families and good jobs in Nigeria. Documentation in the participant
trainee files for the past several years showed that the trainees have been
bank managers, mid- to high-level Nigerian government employees and
officials and staff from USAID’s implementing partners. Therefore,
Mission officials consider the risk of such participant trainees not
returning from a short-term program in the United States to be low.

What additional actions should USAID/Nigeria take to meet new
requirements for selecting, monitoring, and reporting on participants
training in the United States?

USAID/Nigeria has taken steps to meet the new requirements for using
TraiNet, the Visa Compliance System and SEVIS for the participant
training program. However, the Mission has not fully complied with
requirements for conducting background checks or monitoring the
progress of participant trainees.




                                                                          10
The Mission drafted a revised Mission Order for participant training that
references the new requirements of TraiNet, the Visa Compliance System
and SEVIS. In this draft order, the Mission increased the amount of time
needed to process a J-1 visa from 30 days to 60 days to reflect USAID’s
visa guidance. The Mission designated appropriate staff to perform the
required roles as data Initiator, Verifier and Approver for TraiNet and the
Visa Compliance System. Additionally, staff at various implementing
partners have been trained and designated as Initiators as allowed by the
ADS. Since February 15, 2003, if complete and accurate data is entered
into TraiNet, the visa process moves smoothly and relatively fast, with 20
to 30 days between the times of initial data entry to when the Mission
receives the J-1 visa. As mentioned earlier, the Training Specialist
continues to encourage the implementing partners to initially enter their
trainees’ data, and is working with them ongoingly to help overcome their
data entry problems.

However, certain problems continue to affect the transition to the new
process and improvements could be made to ensure full compliance with
the ADS and Complete Guide to Visa Compliance. These include
performing background checks, and monitoring the progress of the
trainees on a systematic and timely basis.

Background Checks Are Needed on Participant Trainees

USAID/Nigeria has not performed any background checks on participants
traveling to the United States since February 2003. The January 2003
USAID Complete Guide to Visa Compliance requires that such
background checks be performed for all participants traveling to the
United States. It further states that the process must be contained in a
Mission Order, and must address how the determination will be made and
by whom, and the types of acceptable evidence to be relied upon. The
evidence and results of the check should be maintained on file with other
participant training documentation. However, USAID/Nigeria had not yet
established a process to conduct background checks, nor does the draft
Mission Order address this requirement. Mission officials noted that for
the most part, they have personal knowledge of the participants, who are
often officials in the Nigerian government or staff from USAID’s
implementing partners and do not consider a background investigation to
be necessary. The Complete Guide for Visa Compliance states that
personal knowledge of the participant is acceptable evidence to be relied
upon on in making the determination, but that the determination should be
documented.

       Recommendation No. 3: We recommend that the
       Mission Director of USAID/Nigeria develop a process to
       perform background checks for all participants


                                                                        11
       traveling to the United States and incorporate specific
       references to this process in the Participant Training
       Mission Order.

Real-Time Tracking and Monitoring
Are Needed on Participant Trainees

USAID/Nigeria did not have a systematic, real-time process in place to
track and monitor the changing status of participants in the United States,
nor for their return to Nigeria. According to ADS E253.5.2c, USAID
sponsoring units or implementing partners are responsible for tracking the
whereabouts of participants at all times while in the United States as well
as for the timely return to the workplace. Minimum monitoring includes,
among other things (1) the participant trainee has arrived and settled into
living quarters; (2) the participant trainee is attending program sessions;
and (3) the participant trainee’s departure arrangements have been made
and communicated to USAID. USAID’s Complete Guide to Visa
Compliance further defines the requirement, stating that information must
be tracked and reported using TraiNet on real-time basis (defined as the
same day the information is known) as opposed to the prior quarterly
tracking reports.

In reviewing the data in TraiNet and Visa Compliance System for
participants that were in the United States during the time of our audit
work, we noted that most of the records showed the status of the training
and the participant trainee as ‘Planned’ without the basic updates showing
that the trainee had arrived and was attending the training sessions.
Furthermore, the draft revision of the Mission Order for the participant
training program does not include any requirements for sponsors to
provide real-time monitoring and tracking of the status of trainees as
delineated in the Complete Guide to Visa Compliance. Finally, the 2002
FMFIA report noted a control weakness related to the timely tracking of
the participants’ return to their workplace by sponsoring units using
TraiNet. Although the corrective action for this weakness was to develop
a monitoring plan, this plan has yet to be developed. Mission officials
indicated that it is often difficult to fully use TraiNet to monitor the
participant trainees. This is due to the design of the TraiNet software,
which only allows the initial data entry person to update the information in
the system. For example, if the Mission Training Specialist made the
initial data entry, she must rely on updates via email or telephone from the
implementing partners to update her TraiNet files. However, the Mission
officials agreed that more could be done to monitor the status of the
participant trainees, by developing a process to pro-actively contact the
implementing partners for updates throughout the training period.




                                                                         12
                        Recommendation No. 4: We recommend that the
                        Mission Director of USAID/Nigeria develop a process to
                        obtain real-time data on the participants’ status while in
                        the United States and upon their return to Nigeria, and
                        incorporate specific references to this process in the
                        Participant Training Mission Order.



Management       In response to the draft report, USAID/Nigeria agreed with all of the
Comments and     findings and recommendations in the draft audit report. Based on
Our Evaluation   appropriate actions taken by the Mission, all recommendations are
                 considered closed upon the issuance of the final report. The attachments
                 to the management comments are not included in this audit report.

                 Recommendation No. 1 recommends that the Mission Director incorporate
                 the Automated Directives System (ADS) requirement to obtain an
                 Individual Taxpayer Identification Number (ITIN) into the Mission Order
                 on the participant training program. The Mission concurred with this
                 recommendation and has taken steps to address it which include
                 identifying in the Mission Order the primary responsibility for obtaining
                 the ITIN to be that of the Implementing Partners (IP) and their U.S. home
                 offices. The Mission has spelt out procedures that might help in achieving
                 this. They noted, however, that when they tried to implement the ADS
                 requirement by asking an IP to contact the J-Visa Help Desk in
                 Washington, D.C. on the processes involved, the IP informed the Mission
                 that the requirement was not mandatory. The Mission also contacted the
                 J-Visa Specialist in Washington and found out that she too did not know
                 how this works. The Mission is awaiting clarification from an officer who
                 is revising ADS 253. The Mission is nevertheless implementing the
                 requirement gradually as mandated by the current ADS and as the
                 implementation process becomes clearer.

                 Recommendation No. 2 states that the Mission Director should develop a
                 checklist of required documents to be maintained in each participant
                 trainee file and incorporate the list in the Mission Order. The Mission has
                 developed this checklist, which was vetted by the Regional Legal Adviser,
                 and incorporated it in the Mission Order. The Mission has listed in the
                 Mission Order all the documentation that the implementing partners must
                 ensure that the trainees bring before the J-Visa can be released.

                 Recommendation No. 3 recommends that the Mission Director develop a
                 process to perform background checks for all participants traveling to the
                 United States and incorporate specific references to this process in the
                 Participant Training Mission Order. The Mission has put a process in
                 place and identified it in the Mission Order. It includes personal


                                                                                         13
knowledge by Mission staff of the participants and their institutions as
their initial security check and use of the I.C. Consular Lookout and
Support System by the U.S. Consulate to perform name checks on the
participants.

Recommendation No. 4 requests the Mission Director to develop a process
to obtain real-time data on the participants’ status while they are in the
United States and upon their return to Nigeria, and incorporate specific
reference to the process in the Participant Training Mission Order. The
Mission has identified the Implementing Partner (IP) to be responsible for
tracking the whereabouts of participants at all times and has listed the
information the IP is required to enter into the TraiNet on the same day it
becomes aware of the data.

USAID Nigeria has committed to continue to work hard to ensure that all
procedures are followed.




                                                                        14
(This Page Intentionally Left Blank)




                                       15
                                                                               Appendix I

Scope and
              Scope
Methodology
              RIG/Dakar conducted this audit as part of a worldwide audit of USAID’s
              participant training activities. This audit was conducted in accordance
              with generally accepted government auditing standards. The audit was
              designed to answer the following questions:

                 •    Has USAID/Nigeria complied with selected requirements for
                      administering participant training conducted in the United States?
                 •    What have been the non-returnee rates for overseas participants
                      from USAID/Nigeria who were trained in the United States and
                      did USAID/Nigeria take appropriate actions when participants
                      failed to return to their home countries?
                 •    What additional actions should USAID/Nigeria take to meet new
                      requirements for selecting, monitoring, and reporting on
                      participants training in the United States?

              To answer these questions, we reviewed the training records for all
              participant trainees from Nigeria sent to the United States between fiscal
              years 2000 and 2003. Where appropriate, we tested management/internal
              controls in relation to training activities.

              In addition, we interviewed officials from USAID/Nigeria, United States
              Embassy Nigeria and various implementing partners who were involved
              with participant training activities in Nigeria. We conducted the audit
              fieldwork from June 2 through June 19, 2003 in Abuja and Lagos, Nigeria.

              Methodology

              To determine if USAID/Nigeria complied with the requirements for
              administering participant training conducted in the United States, we
              reviewed USAID/Nigeria’s participant training files for fiscal years 2000
              through fiscal year 2003. We used this data to identify the universe of
              participant trainees sent to the United States during that time period. We
              also reviewed USAID’s directives and guidance that were pertinent to the
              program and reviewed USAID/Nigeria’s mission directives.                  We
              interviewed officials from USAID/Nigeria who were involved in participant
              training activities, and officials from the United States Embassy in Abuja
              who represented the Security Office and from the U.S. Consulate in Lagos.
              Finally, we interviewed officials from four implementing partners carrying
              out participant training activities in Nigeria. We reviewed reports generated
              from the TraiNet system and discussed problems and difficulties with staff at
              the Mission and implementing partners.

                                                                                        16
To determine the non-returnee rate of Nigerians trained in the United States
and whether USAID/Nigeria took appropriate actions when participants
failed to return to their home countries, we reviewed data from
USAID/Nigeria and the implementing partners we visited. We also
interviewed officials from the United States Embassy in Abuja and the
Consulate in Lagos, Nigeria.




                                                                         17
                                                                               Appendix II

Management
Comments:




                  USAID/NIGERIA

                  MEMORANDUM

                 To:          RIG/Dakar, Lee Jewel III

                 From:        USAID Nigeria Mission Director, Dawn Liberi /s/

                 Subject:     Re Draft Report on Audit of USAID/Nigeria’s Participant
                              Training Activities (Report No. 7-620-03-00X-P)

                 Date:        September 8, 2003


                 Thank you for your draft report on the Audit of USAID/Nigeria’s
                 Participant Training Activities. My staff and I have closely reviewed the
                 issues raised and have also engaged the help of the Regional Legal Adviser,
                 Scott Stofel. We extensively revised the Mission’s Participant Training
                 Mission Order to address all the recommendations as well as other issues
                 we noted were ADS requirements that were not previously captured.
                 Following please find USAID/Nigeria’s response to your four
                 recommendations.

                Per recommendation 1 which recommends that the Mission Director
                 should incorporate the ADS requirement to obtain an Individual Tax Payer
                 Identification Number into the Mission Order. USAID/Nigeria action
                 follows:

                 We have done that. The Mission Order identifies the primary responsibility
                 for obtaining the ITIN to be that of the Implementing Partners and their
                 U.S. home offices. We spelt out procedures that might help in achieving
                 this. However, it is noteworthy that when the Mission tried implementing

                                                                                         18
    this by asking an IP to contact the J-Visa Help Desk in Washington, D.C.
    on the processes involved, they were informed that the requirement was not
    mandatory. The ADS actually states that short term scholars (with program
    less than 12 months) may not be liable to Federal Tax while Longer Term
    scholars (12 months and above) are generally liable. Further request for
    clarification by the Training Specialist from the J-Visa Specialist in
    Washington, D.C. revealed that she also did not know how this works. We
    are currently waiting for clarification from an officer who is revising the
    ADS 253. Despite all this, since ADS currently mandates this requirement,
    we are going to implement it gradually as the implementation process
    becomes clearer.

   Recommendation 2 states that the Mission Director should develop a
    checklist of required documents to be maintained in each participant trainee
    file and incorporate the list in the Mission Order. The Mission’s action
    follows:

    The USAID/Nigeria checklist, which was vetted by the RLA, has been
    developed. We have also incorporated this as a requirement in the Mission
    Order. We noted in the Order that partners must ensure that participants
    bring documentation of their tax identification numbers, health and accident
    coverage, certificate of medical eligibility (where the program is for more
    than 30 days), letter identifying who is responsible for payment of claims
    not covered by the insurance plans and also drug trafficking certification
    (where required). All documents must be received before the J-1 visa can
    be released.

   Recommendation 3 states that the Mission Director should develop a
    process to perform background checks for all participants traveling to the
    United States and incorporate specific references to this process in the
    Participant Training Mission Order. USAID/Nigeria action is noted below:

    A process has been put in place and identified in the Mission Order.
    Personal knowledge by staff of participants and their institutions constitute
    our initial security check. In addition, the I.C. Consular Lookout and
    Support System (CLASS) will be used by the U.S. Consulate to perform
    name checks on the participants.

   Recommendation 4 requests the Mission Director to develop a process to
    obtain real-time data on the participants’ status while in the United States
    and upon their return to Nigeria, and incorporate specific reference to the
    process in the Participant Training Mission Order. USAID/Nigeria action
    is noted below:




                                                                               19
The Implementing Partner is responsible for tracking the whereabouts of
participants at all times and is required to enter appropriate data into the
TraiNet on the same day it becomes aware of the following:

 a.   Participant’s arrival in the U.S.
 b.   Participant’s date of settling into living quarters
 c.   Participant’s change of address in the U.S.
 d.   Participant’s departure arrangements have been made
 e.   Participant’s return to Nigeria to Nigeria and resumption at work.

USAID Nigeria will continue to work hard to ensure that all procedures are
followed. If you have any questions regarding our response to your
recommendations, please contact me.




                                                                           20
